                                              2



 costs, and did not maintain separate account codes in order to record unallowable
 expenses. To more equitably allocate indirect costs to agencies such as NSF, which
 primarily fund research, we concluded that in the future Bishop Museum should use a
 Multiple Allocation Base Method to compute its indirect cost rate, or compute a
 separate indirect cost rate for research.

         In response to the audit report, Bishop Museum has indicated that it will train its
staff and prepare and implement policies and procedures for the preparation of future
indirect cost proposals in compliance with Federal and NSF requirements. However,
it disagreed with the recommendation to use a Multiple Allocation Base Method to
calculate its indirect cost rate, because it thought the costs of doing so would exceed the
benefits. Because we conclude that NSF is currently paying for Facility costs that do
not benefit NSF awards, we reiterate our recommendation.

       In accordance with OMB Circular A-50, Audit Followup, and NSF's Standard
Operating Guidance 2001-4, Policies and Procedures to Audit Reports Issuance and
Resolution of Audit Findings Contained in Audits of NSF Awardees, we request that
NSF submit a corrective action plan to our office identifying the specific actions and
milestone dates for addressing our recommendations.

        We thank you and your staff for the cooperation extended to us during this audit.
If you have any questions about this report, please contact James Noeth, on extension
5005, or Emily Woodruff, on extension 5019.
      Bishop Museum
      Honolulu, Hawaii


Financial and Compliance Audit
       Of Indirect Costs
      For the Year Ended
         June 30, 2000
	




                                             CONTENTS

                                                                                   Page
    Section I - Introduction and Audit Results:
          Background                                                                 2
          Objective, Scope, and Methodology                                          2
          Summary Results of Audit                                                   4
          Exit Conference                                                            6

    Section II -- Findings and Recommendations:
         Findings and Recommendations on Internal Control                            8
         Findings and Recommendations on Compliance                                 11
         Other Matters                                                              15

    Section III - Financial   Schedules:
         Schedule A           Summary Schedule Indirect Cost Rates                  19
         Schedule B           Schedule of Indirect Pool Costs                       20
         Schedule C-1         Schedule of Adjustments to the Direct Cost Base       25
         Schedule C-2         Adjustments to Allocation Base                        26
         Schedule C-3         Voluntarily Deleted Unallowable Activity Expenses,
                              Which Should Have Been Included in the Base           27
          Schedule D          Schedule of Contracted Services                       29
          Schedule E          Schedule of Excess Fringe Benefits and Associated
                              Overhead                                              32
          Schedule F          Schedule of Excess Currency Charges on
                              Award No. DEB-9707928                                 33

     Appendix: Bishop Museum Responses to Draft Audit Report                        34


                                            ACRONYMS

     The following acronyms are used in this report.

     DACS           NSF Division of Acquisition and Cost Support
     DGA            NSF Division of Grants and Agreements
     FCTR           Federal Cash Transactions Report
     FY             Fiscal Year
     NSF            National Science Foundation
     OIG            NSF Office of the Inspector General
     OMB            U.S. Office of Management and Budget
           SECTION I


INTRODUCTION AND AUDIT RESULTS
                             Introduction and Audit Results

    Background

        Bishop Museum, a not-for-profit-organization located in Honolulu Hawaii, is a
natural and cultural history museum founded in 1889 to honor the memory of Princess
Bernice Pauahi Bishop, the last descendent of the Kamehameha royal family. The
Museum is organized into seven program areas: Information Resources, Collections
Management, Research, Consulting, Public Programs, Merchandising, and Hawaii
Maritime Center. Federal agencies fund programs in three of these areas, Collections
Management, Research, and Public Programs. As of the one-year period ending June 30,
2000, Bishop Museum had about $12 million total expenditures, $4 million of which
were expenses for Federal awards. Of these Federal expenses, NSF awards constituted
approximately $200,000, about 5 percent. AtI the end of Bishop Museum's June 30, 2000
Fiscal Year (FY), NSF had six open awards. According to the Federal Cash
Transactions Report as of the same date, the cumulative total NSF had disbursed on these
awards was $1,046,492 and the unobligated balance was $100,259.




        We conducted a financial and compliance audit of Bishop Museum's FY 2000
indirect cost proposal in order to determine final indirect cost rate for that year and to
assist NSF in determining whether Bishop Museum had a reliable methodology and
process for proposing future indirect cost rates. Our audit objectives were to determine

' NSF awards included: OCE-9415948, DEB-9527915, DEB-9528025, DEB-9705494, EAR-706033, and
DEB-9707928.

Z
 OMB Circular A- 122, Cost Principles for Non-Profit Organizations, Attachment A, Section E 1 a. OMB
Circular A- 122, Attachment A, Section E 2 a states:

               Unless different arrangements are agreed to by the agencies concerned, the Federal
               agency with the largest dollar value of awards with an organization will be
               designated as the cognizant agency for the negotiation and approval of the indirect
               cost rates.... Once an agency is assigned cognizance for a particular non-profit
               organization, the assignment will not be changed unless there is a major long-term
               shift in the dollar volume of the Federal awards to the organization.




                                                   2
whether Bishop Museum complied with Federal requirements in computing its indirect
cost proposal and to evaluate the adequacy of Bishop Museum's internal controls to
administer, account for, and monitor indirect cost charges to Federal awards.

        The audit scope included a review of Bishop Museum's proposed FY 2000
indirect cost rate to determine whether the rate was based on reasonable, allocable, and
allowable costs, and whether Bishop Museum had adequate controls to administer,
account for, and monitor indirect costs in accordance with Federal cost principles and
administrative requirements. We tested Bishop Museum's compliance with Federal
requirements and the adequacy of its internal controls. Specifically, we audited costs
included in the indirect cost pool and in the direct cost base by testing a sample of
transactions in the pool and the base and by reviewing the Museum's timekeeping
system. We were on site from April 13, 2001 to April 24, 2001. Subsequently, we
requested and obtained additional documentation from the Museum to support its
proposal.

        We conducted our review in accordance with the Comptroller General's
Government Auditing Standards, and accordingly included such tests of accounting
records and other auditing procedures that we considered necessary to address the review
objectives.

Museum Response

        We provided Bishop Museum with a draft of this report to allow officials the
opportunity to review the report and provide written responses to the findings and
recommendations. We summarized Bishop Museum's responses, which follow each
recommendation. The complete written response is included in the Appendix to this
audit report. We revised our report where appropriate, based on the Museum's responses.




                                            3
    Contrary to Federal requirements, Bishop Museum included unallowable costs from
seven financial accounts in its indirect cost pool, mistakenly omitted 10 activities from its
direct cost base, included excessive subcontract costs in that base, and did not adequately
document its valuation for voluntary service costs added to the base. These errors
occurred primarily because the Bishop Museum staff responsible for proposing an
indirect cost rate did not fully understand the applicable Federal administrative
requirements and cost principles. This lack of understanding was manifested in so many
facets of our audit that we have concluded that Bishop Museum has a systemic internal
control weakness in the systems, policies, and procedures it uses to prepare indirect cost
proposals.

    In addition, Bishop Museum's allocation of indirect costs may not be equitable.
Federal requirements state that if an organization's indirect costs benefit its major
functions to approximately the same degree, it may allocate indirect costs by a simplified
method; and alternatively, if its indirect costs benefit its major functions in varying
degrees, it would more accurately allocate indirect costs by a multiple allocation base
method. Bishop Museum uses the simplified method and thus calculates only one
indirect cost rate. However, since the Museum has many program areas/functions, this
allocation of indirect costs may not be equitable. For example, NSF funds primarily
Research Programs; but although many of the Museum's facilities, such as the
Planetarium, benefit Public Programs not Research Programs, these large Public Program

  See Schedule B.
3

  See Schedule D.
4
s
  See Schedule C-1.
6
  See Schedule A.



                                             4
facility costs are incorporated into the single indirect cost rate. Thus, the Museum's use
of a single rate may cause NSF and other Federal agencies that generally fund Research
Programs to pay a disproportionate share of the Museum's indirect costs. Bishop does
not separate Facilities from Administrative costs because it does not receive more than
$10 million in Federal funding, the threshold at which the cost principles require a
separate rate for each of these costs.

    We also questioned $46,326 of direct costs, of which $40,440 were excessive
recoveries of fringe benefits and $5,886 were overcharges on program costs that required
currency exchange reconciliation.

         To address the internal control weakness and compliance deficiencies, we
recommend that the Directors of NSF's Division of Acquisition and Cost Support
(DACS) and Division of Grants and Agreements (DGA) require that the Bishop Museum
develop policies and procedures for preparing indirect cost rate proposals and train its
staff to prepare indirect cost proposals that comply with Federal requirements. In
addition, we recommend that if Bishop receives future NSF awards, the Directors should
require the Museum to break out research as a function so that NSF does not pay for
excessive Facility costs when it reimburses Bishop's indirect costs on NSF awards. We
also recommend that the Directors require that Bishop Museum repay $46,326 of
excessive direct and indirect costs to the Federal Government.




                                             5
EXIT CONFERENCE

       An exit telephone conference was conducted on January 8, 2003. The findings on
compliance and internal control and the adjustments to the indirect cost proposal were
discussed. The following participated in the telephone conference:




For the NSF Office of the Inspector General
James Noeth, Senior Audit Manager
Bandana Sen, Auditor
Emily Woodruff, Attorney Advisor




                                          6
         SECTION II

FINDINGS AND RECOMMENDATIONS
	




                         Findings and Recommendations on Internal Control
                                  For the Year ended June 30, 2000


    Material Weakness

             The Office of Management and Budget (OMB) has promulgated administrative
    requirements and cost principles for recipients of Federal funds to follow in accounting
    for, documenting, and reporting indirect costs on Federal awards. The cost principles for
    non-profits, OMB Circular A- 122, consist of complex rules regarding the allowability of
    costs, the composition of the direct cost base, and various methods to use in proposing an
    indirect cost rate. The Bishop Museum's FY 2000 indirect cost proposal reflected a lack
    of understanding of these cost principles. Specifically, the Museum included
    unallowable costs in the indirect cost pool; omitted certain costs, which should have been
    included in the direct cost base; and did not support its valuation of voluntary service
    costs with actual costs paid for regular employees for comparable volunteer work.

             In addition, the Museum submitted its FY 2000 indirect cost proposal based on
    total direct costs, not modified total direct costs, the method stipulated in prior negotiated
    rates, resulting in an inflated direct cost base. Netting costs that Bishop Museum
    mistakenly included in its direct cost base from the costs that should have been included
    in the base, we subtracted a total of $285,546 from the direct cost base. $ As a combined
    result of overstating the indirect cost pool and the direct cost base, the Museum
    overstated the proposed indirect cost rate by 5.32 percentage points. The errors occurred
    because the Bishop Museum accounting staff, like that of many non-profits, is small,
    responsible for multiple tasks, and did not have adequate training to prepare the indirect
    cost proposal. 9 In addition, the Museum did not develop adequate written policies and
    procedures to prepare indirect cost rate proposals.

    Recommendation

            We recommend that the Directors of NSF's Division of DACS and DGA require
    that Bishop Museum 1) develop written policies and procedures for preparing indirect
    cost proposals; and 2) train its accounting staff so that it develops sufficient expertise to
    prepare future indirect cost rate proposals that comply with all applicable Federal
    requirements, and 3) support its voluntary service costs with actual costs paid to regular
    employees for comparable volunteer work.



    ' Modified total direct costs are total direct costs excluding capital expenditures, participant support, and
    subcontract costs exceeding $25,000.
    8
      Additions to the direct cost base            $271,839         See Schedule C-1.
      Subtractions from the direct cost base      ($557,385)        See Schedule D.
      Net reduction to the direct cost base       ($285,546)
    9
      Non-profits traditionally have small, over-burdened accounting staffs, in contrast to larger organizations,
    where specific tasks, such as preparing an indirect cost proposal, might be handled by staff who become
    experts in this limited area.




                                                            8
Museum's Response

      Bishop Museum agreed with the first two parts of this recommendation.
Subsequent to its review of the draft audit report, the Museum also sent us a list of actual
FY 2002 costs for volunteer service positions, and stated that the costs for FY 2000 were
comparable.

OIG's Comment

       No further response is necessary.

Reportable Condition (Non-Material Weakness)

OMB Circular A-122, Attachment A, Section D 1 (b) states:

              Where an organization has several major functions which
              benefit from its indirect cost in varying degrees, allocation
              of indirect costs may require the accumulation of such costs
              into separate cost groupings which then are allocated
              individually to benefiting functions by means of a base that
              best measures the relative degree of benefit.

OMB Circular A-122, Attachment A, Section D 5 states:

              When a particular segment of work ...[under a single award
              or . . . under a group of awards....] is performed in an
              environment which appears to generate a significantly
              different level of indirect costs, provisions should be made
              for a separate indirect cost pool applicable to such work.

To compute its indirect cost rate, Bishop Museum uses the simplified method, which
combines all allowable indirect costs into one pool and divides that pool by a direct cost
base. However, Bishop has seven program areas, one of which is research, the area
which NSF traditionally funds at the Museum. The NSF awards do not use the
Planetarium or areas of the Museum where artifacts such as spears are stored.
Nevertheless, because the costs for these facilities are included in the Museum's indirect
cost pool, NSF pays a portion of these facility costs when it reimburses its indirect costs
on specific NSF awards. We believe that the Museum's Public Program facility costs are
greater than its Research Program facility costs and therefore, that NSF may be paying a
disproportional amount of indirect costs for its research awards to Bishop. The Museum
has not computed an indirect cost rate by breaking research indirect costs into separate
groupings, nor has it computed a special indirect cost rate for research, because it thinks
the costs of these approach are too high and unnecessary.




                                             9
Recommendation

        We recommend that if NSF makes future research awards to Bishop, the Directors
of NSF's Divisions of DACS and DGA require the Museum to calculate indirect costs for
research, either through the multiple allocation base method or by the computation of a
special indirect cost rate.

Museum's Response

        The costs to implement a multiple allocation base will exceed the benefits. OMB
Circular A- 122 states that the simplified allocation method may be used when an
organization's major functions benefit from its indirect costs to approximately the same
degree, which is the case for Bishop Museum. Also, the Museum does not receive more
than $10 million in Federal funding of direct costs and is therefore not required by OMB
Circular A-122 to break out Facilities and Administrative costs. Further, a majority of
the costs in the indirect cost pool are administrative and would be allocable on a standard
modified direct cost basis, and therefore, there would be insignificant differences in
indirect costs allocated to discrete program areas. Finally, during the last negotiation of
the indirect cost rate with NSF, NSF requested that Bishop use the simplified allocation
method.

OIG's Comment

        Although we agree that Bishop Museum is not required to break out Facilities and
Administrative costs because it receives less than $10 million a year in Federal funds, we
disagree that its major functions benefit from its indirect costs to approximately the same
degree. To the contrary, we believe that the Museum has "several major functions which
benefit from its indirect costs in varying degrees." 1 0 Therefore, we conclude that Bishop
Museum should apportion indirect costs by accumulating them into separate cost
groupings, allocate them individually to benefiting functions by means of a base which
best measures the relative degree of benefit, and then distribute the indirect costs
allocated to each function to individual awards by means of indirect cost rate. NSF
proposed the simplified allocation method during the last indirect cost rate negotiation
because that negotiation was based on a desk review, not an on-site visit and an audit.
During our site visit to the Museum and audit of Bishop's FY 2000 indirect cost rate
proposal, we found that NSF is reimbursing Bishop Museum for more that NSF's fair
share of indirect costs on NSF awards because NSF only funds research functions, but the
indirect cost rate is based on indirect costs for seven functions and includes facility costs
for buildings NSF awards do not use. Thus, we reiterate our recommendation that if NSF
makes future awards to Bishop Museum the Directors of NSF's DACS and DGA should
require Bishop to calculate indirect costs specifically for research, either through the use
of the multiple allocation base method or by means of calculating a special indirect cost
rate.



10
     OMB Circular A-122, Attachment A, Section D 1 b.


                                                   10
                      Findings and Recommendations on Compliance
                                For the Year ended June 30, 2000

1. Unallowable Costs in the Indirect Cost Pool

          According to the applicable cost principles, certain costs are unallowable as
      charges to the Federal Government. Bishop Museum's indirect cost pool included the
      following specific costs, which are disallowed by these cost principles:

      •   OMB Circular A-122, Attachment B, Paragraph 40 b states that gains or losses
          from the sale or exchange of property are unallowable. Bishop Museum included
          $209,121 of costs associated with the loss on the sale of property in the indirect
          cost pool.

      •   OMB Circular A- 122, Attachment B, paragraph 11 c (2) states that depreciation
          will exclude the portion of the cost of buildings and equipment borne by the
          Federal Government. Bishop Museum included $134,886 of depreciation costs
          for Government-funded assets in its indirect cost pool.

      •   OMB Circular A-122, Attachment B, paragraph 23 c states that costs of
          investment counsel incurred to enhance income from investments are not
          allowable. Bishop Museum included $107,268 of unallowable investment
          property expenses in its indirect cost pool.

      •   OMB Circular A- 122, Attachment B, paragraph 23 b states that fundraising costs
          are unallowable. Bishop Museum included $46,128 of "Legal and Accounting"
          costs," and $6,538 of "Other Contracted Services" costs, both of which were
          fundraising costs, in its indirect cost pool.

      •   OMB Circular A- 122, Attachment B, paragraph 1, states that advertising costs are
          unallowable. Due to an accounting error, Bishop Museum failed to exclude
          $27,940 of advertising costs from its indirect cost pool.

      •   OMB Circular A- 122, Attachment B, paragraph 14 states that entertainment costs
          are not allowable. Bishop Museum included $3,048 of unallowable entertainment
          costs in its indirect cost pool.

As a result of the inclusion of unallowable costs in its indirect cost pool, Bishop Museum
overstated the pool by $534,929, and thus overstated its proposed indirect cost rate. The
Museum included unallowable costs in its indirect cost pool because it does not have any
written policies and procedures to define and segregate unallowable costs and does not
maintain separate account codes to record unallowable expenses. In addition, Bishop
Museum does not have separate accounts to record assets purchased by Government
funds to ensure that the depreciation of these assets is not included in the indirect cost
1 1
  Of the questioned $46,128 of Legal and Accounting costs in the pool, $40,094 were questioned because
they were double-counted, not because they were unallowable under the cost principles.


                                                   11
pool. Also, Bishop Museum did not understand the Federal cost principles requiring it to
net investment losses from revenue generated by the investment property.

Recommendation

        We recommend that the Directors of NSF's DACS and DGA require Bishop
Museum to develop and implement written policies and procedures to segregate
unallowable costs, and to maintain separate account codes in order to record unallowable
expenses, including codes to segregate assets purchased by Government funds from other
assets.

Museum's Response

         Bishop Museum generally agreed with our recommendation to improve policies
and procedures to segregate unallowable costs, and to maintain separate account codes to
record unallowable expenses, including codes to segregate assets purchased with
Government funds from assets acquired with other revenue sources. However, Bishop
Museum objected to the draft report recommendation to net a portion of the revenues
from Public Programs from the costs in the indirect cost pools, which we had done to
compensate for the inclusion of the sizeable amount of costs from Public Program
facilities NSF awards do not utilize. The Museum also stated that $40,094 of the $46,128
of questioned legal and accounting costs was not unallowable but double-counted, and
that $2,232 of the $5,280 of questioned entertainment costs was allowable employee
morale expense.

OIG's Comment

        Although we still believe that netting of a portion of Public Program revenues
from the indirect cost pool would result in a more accurate apportionment of indirect
costs associated with Research Programs, we have omitted netting in this report because
the applicable cost principles do not explicitly authorize netting program income.
Instead, we have addressed the issue of inequitable allocation of indirect costs
prospectively in our recommendations on internal control. However, we agree with
Bishop Museum's response to our identifying a portion of legal and accounting and
entertainment expenses as questioned costs and have revised the audit report accordingly.

2. Other Direct Cost Base Adjustments

        OMB Circular A-122, Attachment A, Section A 2, states that to be allowable
under an award, costs must be reasonable and allocable to the awards, and conform to
exclusions in other sections of A-122. However, although unallocable or unallowable
costs cannot be charged to the Federal Government, they must be treated as direct costs in
the direct cost base used to calculate the indirect cost rate under certain circumstances.




                                            12
Specifically, OMB Circular A-122, Attachment A, section B 3 states:

             The cost of certain activities are not allowable as charges to
           Federal awards. . . However, even though these costs are
           unallowable for purposes of computing charges to Federal
           awards, they nonetheless must be treated as direct costs for the
           purposes of determining indirect cost rates and be allocated their
           share of the organization's indirect costs if they represent
           activities which (1) include the salaries of personnel, (2) occupy
           space, and (3) benefit from the organization's indirect costs.

Bishop Museum understated its direct cost base by $271,839 because it did not include
unallocable costs, such as rental property expenses, or unallowable costs, such as
entertainment and fundraising costs, in its direct cost base. It did not do so because
Bishop accounting staff overlooked the Federal requirement that certain activity costs
that are unallowable as indirect costs should nevertheless be included in the direct cost
base. As a result of the exclusion of these costs from the direct cost base, Bishop
Museum understated the direct cost base and overstated the indirect cost rate.

Recommendation

        We recommend that the Directors of NSF's Divisions of DACS and DGA ensure
that Bishop Museum add to its direct cost base unallocable and unallowable activity costs
that represent activities that include the salaries of personnel, occupy space, and benefit
from the organization's indirect costs.

Museum's Response

       Bishop Museum replied that $240,000 of the costs added to the base should not
have been included because they represented an in-kind contribution that involved
minimal support and oversight by Museum staff.

OIG's Comment

        We have deleted the $240,000 of in-kind costs from the direct cost base. No
further response is necessary.

3. Useof Incorrect Direct Cost Base

        When it negotiated its last indirect cost rate agreement for the Federal
Government with Bishop Museum, NSF stated that the Museum's rate was based on
modified total direct costs (MTDC), which includes only the first $25,000 of subcontract
costs. Bishop Museum overstated its direct cost base by $557,385 because it did not
deduct any subcontract costs. Bishop did not use MTDC as its base for calculating its
indirect cost rate because it overlooked this requirement in its negotiated rate agreement.




                                             13
Recommendation

       We recommend that the directors of NSF's DACS and DGA require Bishop
Museum to use the modified total direct cost base required by agreements negotiated with
NSF as its base for calculating proposed indirect cost rates.

Museum's Response

       Bishop Museum agreed with this recommendation.

OIG's Comment

       No further response is necessary.




                                           14
                                              Other Matters

       In our audit of the six open NSF awards, we found that in FY 2000 Bishop
Museum had claimed a total of $46,326 excessive direct costs for fringe benefits and
program costs that required currency exchanges. We also found that the independent
CPA firm that performed the single annual audit of Bishop Museum for FY 2000, as
required by OMB Circular A-133, 1 2 issued a Management Letter, which noted seven
accounting issues for which the Museum needed to take corrective action.




Recommendation

        We recommend that the NSF Divisions of DACS and DGA require Bishop to
return $40,440 to the Federal Treasury.

Museum's Response

        Bishop Museum stated that it uses the fixed with carry forward provision
provided for in OMB Circular A-122 and would adjust the $40,440 in rates for future
periods.

OIG's Comment

        The fixed with carry forward provision in OMB Circular A- 122 applies to
overhead rates, not to fringe benefit costs. The applicable fringe benefit provisions in
OMB Circular A-122 state that fringe benefits shall be charged on the basis of actual
costs. However, Bishop is proposing to use the actual rates from one year as the basis for
the calculation of the next year's rates. We reiterate our recommendation.




12
     OMB Circular A-133, Audits    ofStates, Local Governments, and Non-Profit Organizations.
13
     We did not audit this rate.


                                                      15
2. Currency-Exchange Rates Too High

        OMB Circular A-122, Attachment A, Section A 2 states that to be allowable,
costs must be reasonable and allocable to an award. Bishop Museum made $42,000 of
advances to researchers working in Papua New Guinea on award No. DEB-9707928, and
included the $42,000 as part of the costs that NSF reimbursed. The advances were based
on costs previously incurred in Papua New Guinea Kina. According to the conversion
                                Bishop
rates used on these advances, Bishop   Museum over-recovered $5,886 on the exchanges
between U.S. Dollars and the Kina. The over-recoveries occurred because Bishop staff
intended to reconcile the exchanges from U.S. Dollars to expenses recorded in Kina only
at the expiration of the award.

Recommendation

      We recommend that the Directors of NSF's DACS and DGA require Bishop
Museum to repay NSF for the $5,886 of over-charges on Award No. DEB-9707928.

Museum's Response

        Bishop Museum objected to our use of historical exchange rates to convert U.S.
dollars to Kina and subsequently provided us with actual exchange rates used by its bank
on the dates of the conversion.

OIG's Comment

       Our recommendation for the repayment of $5,886 now represents the actual
amount of overcharges, using the incurred costs reported in Kina, the advance amounts in
U.S. dollars, and the bank rates on the dates of the exchanges.

3. Prior Audit Findings

    Ernst and Young's Management Letter of 3/21/01, issued in accordance
with its FY 2000 A-133 audit of Bishop Museum disclosed the following:

       •   Need to enforce current procedures to ensure timely preparation and

       •
           review of payroll reconciliation.
           Need to ensure that Unconditional Promises to Give and Contributions

       •
           Received are recorded on a timely basis.
           Need to develop a formal process to evaluate long-lived assets
           (particularly investment properties) in compliance with FASB

       •
           Statement 121.

       •
           Need to ensure timely submission of performance reports and FCTRs.
           Need to enforce procurement policy by requiring appropriate
           documentation for all items greater than $2,500.

14
     See Schedule F.


                                              16
    •  Need to revise bids and quotations policy to state explicitly the
       requirements of OMB Circular A-110, Subpart C, paragraph 44 (a),
       which states that "All recipients shall establish written procurement
       procedures... that provide... that (1) Recipients avoid purchasing
       unnecessary items. (2) Where appropriate, an analysis is made of lease
       and purchase alternatives to determine which would be the most
       economical and practical procurement for the Federal Government.
      (3) Solicitations for goods and services provide for [six listed
       requirements]."
    • Need to maintain written documentation regarding sub-recipient
       monitoring.

Recommendation

       We recommend that the Directors of NSF's Divisions of DACS and DGA verify
whether Bishop Museum has addressed all seven issues listed above, and if it has not, to
take appropriate action to ensure that the Museum does adequately implement steps to
address these management letter findings.

Museum's Response

        Bishop Museum states that it has addressed most of the recommendations in prior
audit findings and that it is in the process of reviewing policies and procedures regarding
the remaining finding, the evaluation of long-lived assets.

OIG's Comment

        We reiterate our recommendation, and specifically recommend that NSF review
the policies and procedures Bishop has developed for procurement, bids and quotations,
subrecipient monitoring, documentation of unconditional promised to give and
contributions received, and the evaluation of long-lived assets.




                                            17
    SECTION III

FINANCIAL SCHEDULES
                                             Schedule A

                 Bishop Museum
      Audit of Indirect Cost Rate Proposal
       For FY 2000 (ended June 30, 2000)
                    Summary


PROPOSED AND AUDITED INDIRECT COST RATES




                        19
                                  Schedule B
        Bishop Museum
       Indirect Cost Pool
Fiscal Year ended June 30, 2000




             20
                                      Bishop Museum
                                     Notes to Schedule B

Note 1- Advertising

OMB Circular A- 122, Attachment B, paragraph 1 states that advertising costs are unallowable.
Due to an accounting error, Bishop Museum failed to exclude $27,940 of advertising costs.
OMB Circular A-122, Attachment A, Section B 1 states that direct costs "are those that can be
identified specifically with a particular final cost objective ...." Bishop Museum included
$37,473 of promotional costs for its Native Hawaiian Culture and Arts Program in its indirect
cost pool, although they are direct costs identified with this program.




Note 3 - Depreciation

OMB Circular A- 122, Attachment B, paragraph 11 c (2) states that computation of depreciation
will exclude: "Any portion of the cost of buildings and equipment borne by or donated by the
Federal Government. ..." Bishop Museum included depreciation of $134,886 on government-
funded assets in the indirect cost pool.




                                              21
                                      Bishop Museum
                              Notes to Schedule B (Continued)


Note 4 - Entertainment Services

OMB Circular A-122, Attachment B, paragraph 14 states that in general entertainment costs are
not allowable.




                                             22
                                       Bishop Museum
                               Notes to Schedule B (Continued)

Note 5 - Legal and Accounting

OMB Circular A-122, Attachment B, paragraph 23 b, states "Costs of... Expenses incurred
solely to raise capital or obtain contributions are unallowable." OMB Circular A-122,
Attachment B, paragraph 23 c, states: "Costs of investment counsel and staff and similar
expenses incurred solely to enhance income from investments are unallowable." Bishop
Museum claimed $6,034 of unallowable legal and accounting (but not Ernst and Young) costs:
$4,685 to obtain funding from the Bishop Trust, and $1,349 for management of the museum's
properties.

OMB Circular A- 110, Section 21 (b) (1) states that recipients of Federal funds shall have
financial management systems that provide accurate financial records. Bishop Museum included
$40,094 of excess charges in its Legal and Accounting accounts, in part because it counted fees
to Ernst and Young both as accruals and when paid.




Note 6 - Loss on Sale of Property

OMB Circular A-122, Attachment B, paragraph 40, b states: "Gains or losses... arising from
the sale or exchange of property ... shall be excluded in computing award costs."

Bishop Museum included $209,121 of costs associated with loss on the sale of property in the
overhead pool. As a result, the overhead pool and overhead rate were overstated. The inclusion
of $209,121 in the overhead pool for loss on the sale of property occurred because Bishop's CPA
auditor, Ernst & Young, made an overhead pool adjustment of $209,121 for impairment loss
related to one of the museum's investment properties (FY 2000, A-133 Audit Report, p.13).




                                              23
                                      Bishop Museum
                              Notes to Schedule B (Continued)

Note 7 - Investment Property Expenses

OMB Circular A-122, Attachment B, paragraph 23 c states: Costs... incurred solely to enhance
income from investments are not allowable." The following expenses are unallowable:




                                            24
                                                                       Schedule C-I
                           Bishop Museum
                  Adjustments to the Direct-Cost Base
                   FY 2000 (Ending June 30, 2000)

                         Total Direct Costs Adjustment


	             Direct Expenses	                Per Proposal	   Notes	
    Program




                                     25
                                                                                Schedule C-2
                                   Bishop Museum
                           Adjustments to the Allocation Base

OMB Circular A-122, Attachment B, paragraph 23 d states: "Fundraising and investment
activities shall be allocated an appropriate share of indirect costs under the conditions
described in subparagraph B.3 of Attachment A."

OMB Circular A-122, Attachment A, section B 3 states: "The costs of certain activities
are not allowable as charges to Federal awards ... However, even though these cost are
unallowable for purposes of computing charges to Federal awards, they nonetheless must
be treated as direct costs for purposes of determining indirect cost rates and be allocated
their share of the organization's direct costs if they represent activities which (1) include
the salaries of personnel, (2) occupy space, and (3) benefit from the organization's
indirect costs."

I. Unallowable Activities, Which Should Have Been Included in the Base

   Of the $534,929 of unallowable indirect cost expenses deducted from the indirect cost
   pool (see Schedule B), the following costs should be allocated to the direct cost base
   because they were incurred to generate revenue and/or benefit from the organization's
   indirect costs.




                                             26
                                                                                       Schedule C-3
                                                                                         Page 1 of 2

                                      Bishop Museum
                     Voluntarily Deleted Unallowable Activity Expenses,
                      Which Should Have Been Included In The Base


OMB Circular A- 122, Attachment A, Section B 3 states that certain unallowable costs, such as
fundraising, should be treated as direct costs for purposes of determining indirect cost rates.
Bishop Museum deleted these costs but did not add them back to the base. Thus, the following
advertising costs (costs used to raise revenues) are added back to the direct cost base.




OMB Circular A- 122, Attachment B, paragraph 14 states that "[c]osts of amusement, diversion,
social activities, ceremonials, and costs relating thereto, such as meals, lodging, rentals,
transportation, and gratuities are unallowable."

OMB Circular A-122, Attachment A, paragraph B 3 states: "The cost of certain activities are
not allowable as charges to Federal awards... However ... they must be treated as direct costs
for purposes of determining indirect cost rates and be allocated their share of the organization's
indirect costs if they represent activities which (1) include the salaries of personnel, (2) occupy
space, and (3) benefit from the organization's indirect costs."




                                                 27
                                                                                   Schedule C-3
                                                                                     Page 2 of 2

                                     Bishop Museum
                    Voluntarily Deleted Unallowable Activity Expenses,
                     Which Should Have Been Included In The Base

Bishop Museum voluntarily deleted the following costs, but did not add them to the direct cost
base.




                                               28
                                      Schedule D
                                      Page l of 3
          Bishop Museum
  Schedule of Contracted Services
For Fiscal Year Ended June 30, 2000




                29
                                      Schedule D
                                      Page 2 of 3
           Bishop Museum
  Schedule of Contracted Services
For Fiscal Year Ended June 30, 2000




               30
                                      Schedule D
                                      Page 3 of 3
           Bishop Museum
  Schedule of Contracted Services
For Fiscal Year Ended June 30, 2000




                31
                                                 Schedule E
                 Bishop Museum
Excess Fringe Benefits and Associated Overhead
       Billed to the Federal Government
                Fiscal Year 2000




                     32
                          Schedule F

    Bishop Museum
Excess Currency Charges
   on Award Number
     DEB-9707928




          33
                                                                                          APPENDIX


                                     BISHOP MUSEUM
                                      Honolulu, Hawaii
                              Responses to Draft Audit Report
                                  Received March 8, 2003
                          Recommendations as stated in Audit Report
                Auditee's Response: Verbatim Response from Bishop Museum


Internal Control Finding

Material Weakness

Recommendation

We recommend that the Directors of NSF's Division of DACS and DGA require that Bishop
Museum 1) develop written policies and procedures for preparing indirect cost proposals; and 2)
train its accounting staff so that it develops sufficient expertise to prepare future indirect cost rate
proposals that comply with all applicable Federal requirements, especially those in OMB
Circular A-122.

Auditee's Response

Bishop Museum will plan to document its indirect cost proposal policies and procedures and use
this opportunity to train its staff on preparing future indirect cost rate proposals in compliance
with OMB Circular A-122.


Compliance Findings

Finding 1: Unallowable Costs

Recommendation 1

We recommend that the Directors of NSF's DACS and DGA require Bishop Museum to develop
and implement written policies and procedures to segregate unallowable costs, and to maintain
separate account codes in order to record unallowable expenses, including codes to segregate
assets purchased by government funds from other assets.

Auditee's Response

In general, we agree with the recommendations on improving policies and procedures for
unallowable costs and developing separate account codes for recording unallowable expenses.
However, we take exception to two of the items cited in this finding of the audit report.

Item 1: Bishop Museum included $46,128 of Legal and Accounting costs as fundraising cost in
its indirect cost proposal.


                                                   34
The $46,128 of Legal and Accounting expenses include an amount of $40,094 related to double
recording for accounting related services, an otherwise allowable indirect expense.

Item 2. Bishop Museum included $5,280 of unallowable entertainment costs in its indirect cost
pool.

OMB Circular A-122 does provide that costs incurred to promote employee morale, health and
welfare are allowable. The majority of the entertainment costs cited by the auditor were related
to Museum sponsored activities and intended to improve employer and employee relationships,
employee morale, and overall employee performance. This amount totaled $2,232.

Finding 2: Indirect Cost Rate for Research Overstated

Recommendation2

We recommend that the Directors of DACS and DGA require Bishop Museum to net a portion of
revenues from its indirect cost pool, by either using an approach like the one used in this audit, or
by using a Multiple Allocation Base Method, as described next.

Auditee's Response

We do not understand the basis of the auditors' finding. The indirect cost proposal is based on
an indirect cost rate that takes into account the total cost of operations. The cost for supporting
programs relating to information services and the general public were included in the program
direct cost base of the indirect cost proposal and, therefore, an equitable allocation of
administration and facility costs was already included in the indirect cost proposal. The arbitrary
reduction of the indirect cost pool by netting fees from program revenue would serve to
understate the actual calculation of indirect costs used to support the overall activities of the
Museum. Netting revenue against the indirect cost pool and not adjusting the direct program
costs results in a distortion of the indirect cost rate calculation for the Museum's overall program
operations.

Furthermore, the auditors have cited OMB Circular A- 122, Attachment A, paragraph 5, related
to applicable credits. In accordance with the Circular, the credits typically relate to purchase
discounts, rebates, or allowances, recoveries or indemnities on losses, insurance refunds, and
adjustments of overpayments or erroneous charges. In our opinion, information service fees and
Museum admission proceeds do not meet the criteria of applicable credits as stated in OMB
Circular A-122.




                                                 35
Finding 3: Use of Inappropriate Allocation Method

Recommendation3

We recommend that the Directors of NSF's Divisions of DACS and DGA require Bishop
Museum to evaluate the use of the Multiple Allocation Base Method for calculating its indirect
cost rate proposals to facilitate negotiation of indirect cost rates per program area.

Auditee's Response

We do not agree with this audit recommendation. We believe that the costs to implement a
multiple allocation base will exceed the benefits in terms of data gathering and staff time. In
addition, according to OMB Circular A- 122, Attachment A, section D, paragraph 2, the
Simplified Allocation Method may be used when an organization's major functions benefit from
its indirect costs to approximately the same degree, which is applicable to Bishop Museum. In
addition, Bishop Museum does not receive more than $10 million in Federal funding of direct
costs in a fiscal year and is not required to break out the indirect cost component into Facilities
and Administration categories as stated in OMB Circular A- 122, Attachment A, paragraph 2 e.
Furthermore, a majority of the cost included in the indirect cost pool is administrative in nature
and would, therefore, be allocable on a standard modified direct cost basis. Given this fact, there
would be insignificant differences in indirect costs allocated to discrete program areas.

For additional clarification, we take exception to the auditors' statement that revenue received
should be subtracted from programs in which revenue is received. As a result, the auditors have
not supported their position that Bishop Museum disproportionately allocated indirect costs to
each program by following the Simplified Allocation Method provided for in OMB Circular A-
122.

Finally, when the Museum last negotiated the indirect cost rate with NSF, it is our understanding
that the Simplified Allocation Method was requested and agreed to, over the Multiple Allocation
Base Method.


Finding 4: Voluntary Services in Direct Cost Base Understated
Recommendation4

We recommend that the Directors of NSF's Divisions of DACS and DGA ensure that Bishop
Museum values its voluntary services labor at hourly rates that include inflation adjustments.

Auditee's Response

We do not agree with this finding to apply a CPI factor to that labor rate. Based on the current
labor market for similar work in other activities of the organization, the current labor market is
$10 per hour and represents the fair market value of donated services. The $10 per hour labor
rate is more than reasonable given the current economic climate in labor markets experienced in
Hawaii.



                                                 36
Finding 5: Other Direct Cost Base Adjustments

Recommendation 5

We recommend that the Directors of NSF's Divisions of DACS and DGA ensure that Bishop
Museum add to in its direct cost base unallowable activity costs that represent activities that
include the salaries of personnel, occupy space, and benefit from the organization's indirect
costs.

Auditee's Response

We question the auditors' adjustment to increase the direct cost base by $514,071. Specifically,
this amount included a $240,000 in-kind contribution by placing Bishop Museum's name in a
free publication circulated in Hawaii. This is a free publication that required minimal support
and oversight by Bishop Museum staff. As indicated by the auditors, the nature of this in-kind
contribution did not consume salaries of personnel, occupy space, or require any significant
support of the organization's indirect costs. Accordingly, at a minimum, $240,000 of the
$514,071 should be excluded as a direct cost adjustment for the purposes of determining the
indirect cost rate.


Finding 6: Use of Incorrect Direct Cost Base

Recommendation 6

We recommend that the directors of NSF's DACS and DGA requires Bishop Museum to use the
modified total direct cost base required by agreements negotiated with NSF as its base for
calculating proposed indirect cost rates.

Auditee's Response

We agree with the recommendation and will implement a separate expense code for capturing
subcontractor costs in excess of $25,000 for use in developing the modified total direct cost base
for indirect cost rate purposes.

Other Matters

Finding 1: Over-Recovery of Fringe Benefits and Associated Indirect Costs

Recommendation 1
e recommend that the NSF Divisions of DACS and DGA require Bishop Museum to return
$40,440 excess fringe benefits and associated indirect costs to the Federal Treasury.

Auditee's Response

The standard practice by Bishop Museum is to use an estimated Fringe Benefit rate for the
period, and subsequently calculating the actual rate for the fiscal period and carrying forward any
adjustments to future periods for developing future Fringe Benefit rates. In essence, the Bishop
Museum is following the fixed with carry forward provision as provided for in OMB Circular A-


                                                37
122 to account for its Fringe Benefit costs. Accordingly, the $40,440 excess fringe benefits
determined by the auditors will be adjusted in Fringe Benefit rates for future periods.


Finding 2: Current-Exchange Rates Too High

Recommendation2:

We recommend that the Directors of NSF's DACS and DGA determine if Bishop Museum
adjusted for the currency exchange discrepancies at the end of the award, currently listed in NSF
records as 9/30/01; and if not, require Bishop Museum to repay NSF for the $6,318 of over-
charges due to inaccurate currency conversions. We also recommend that the Directors require
Bishop Museum to develop written policies and procedures for currency conversions on awards
with expenses recorded in foreign currencies.

Auditee's Response

Based upon follow up discussions with the Museum staff involved, the conversion rate used to
convert U.S. dollars to PNG Kina was the actual rate obtained from the bank when the currency
was exchanged. Exchange rates change daily and are almost always less than the rates listed in
the newspapers and currency conversion websites; the reason being that many newspapers and
websites list the interbank rate, which is the best rate that can be obtained among banks. The
difference between the rates given over the counter at a bank and the interbank rate could be up
to, and sometimes greater than, 10%. We have no control over the conversion rates that we
receive from the bank. The effective rate that we receive, less any fees, can be substantiated by
Kina based bank statements. Given the documentation that was provided, we disagree with this
finding by the auditors.


Finding 3: Over-Recovery of Indirect Costs

Recommendation 3:

We recommend that Directors require Bishop Museum to repay NSF $4,371 of excess indirect
costs claimed in FY 2000.


Auditee's Response

We disagree with the auditors' claim that there was an excessive indirect cost rate. The basis for
the claim is predicated on their adjusted 40.93 percent rate as stated in this report. As noted
throughout our response to this report, we question a number of adjustments and interpretations
of OMB Circular A-122 cited by the auditors. In fact, we question the revenue adjustment made
to the indirect cost pool for revenue received from information service activities and Museum
admissions while the total costs to support these activities are still included in the direct cost
base. In addition, $240,000 of in-kind advertising in a free publication circulated in Hawaii does
not require significant indirect cost support on behalf of the Museum. The reversal of these two
adjustments to the auditors' proposed rate results in a revised indirect cost rate of 49.5 percent.



                                                38
	




    Adjusted Indirect Cost Rate:
    $3,538,085 ($3,022,259+$515,826) / 7,144,263 ($7,384,263-$240,000) = 49.5 percent

    Finding 4: Prior Audit Findings

    Recommendation 4:

    We recommend that the Directors of NSF's Divisions of DACS and DGA verify whether Bishop
    Museum has addressed all seven issues listed above, and if it has not, to take appropriate action
    to ensure that the Museum does adequately implement steps to address these management letter
    findings.

    Auditee's Response

       •   Payroll Reconciliations - The lag in performing reconciliations was a result of the
           changeover in personnel responsible for preparing payroll information. This problem has
           been corrected and the new individual has been trained to properly perform this
           responsibility, and is currently completing the reconciliations on a timely basis.

       •   Documentation of Unconditional Promises to Give and Contributions Received -
           The Development Department has developed a formal process to ensure that:
           1.    Sufficient evidence is maintained.
           2.    Pledges and contributions received are recorded on a timely basis. A new
                 Development system has been implemented which makes this process much easier.

       •
                 The old system was a manual process.
           Evaluation of Long-Lived Assets - The Museum is in the process of reviewing all of its
           policies and procedures, including the policy governing investment properties. The Chief
           Financial Officer reviews the values of its real estate holdings at least annually, and other
           investments at least quarterly. As part of the annual review, a formal evaluation will be
           completed and documented.

       • Timely Submission of Reports to Federal Agencies:
      1.      Performance Reports - It is the responsibility of the principal investigator to file
     performance reports on a timely basis. The Museum has recently hired a new staff person
     whose primary responsibility is to assist in managing the larger Federal grants and completing
     reports to the Federal agencies, including NASA. We anticipate that this will allow the
     Museum to file reports on a timely basis.
           2. Federal Cash Transaction Reports - The lag in preparing the reports was a result of
           both the changeover of personnel, which has been corrected, and the late receipt of
           information needed from parties outside of the Museum, specifically from the University
           of Hawaii at Hilo. We have since instituted procedures and formal deadlines to ensure
           the necessary information is received on a timely basis. Since then, Federal Cash
           Transaction Reports have been filed on a timely basis.

       •   Procurement Policy - The Museum has subsequently updated its procurement, bids and
           quotations policy. The updated policy increases the threshold requiring competitive


                                                      39
    bidding from $2,500 to $5,000. In addition, we have discussed with key staff the
    necessity of maintaining appropriate and complete documentation to adequately support
    its purchases.

•   Bids and Quotations Policy - In addition to the above, the Museum has revised its bids
    and quotations policy to require the following procedures be followed for all federal
    grants:
    1. Avoid purchasing unnecessary items;
    2. Where appropriate, perform an analysis of lease and purchase alternatives to determine
    which would be the most economical and practical procurement for the Federal
    Government;
    3. Obtain solicitations for goods and services that include certain requirements; and
    4. Positive efforts shall be made to utilize small businesses, minority-owned firms, and
          women's business enterprises, whenever possible.

•   Documentation of Subrecipient Monitoring - The Museum created a Subrecipient
    Monitoring policy effective March 2002. This includes requirements that subrecipient
    monitoring activities be documented in accordance with federal rules and regulations.
    We will ensure that the principal project managers that oversee subrecipient activities
    request, obtain, and maintain the minimum documentation required by the Federal
    Government.




                                             40
